BECKER GALLAG HER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No.
BRIDGET ALEX, INDIVIDUALLY AND ON BEHALF OF
THE ESTATE OF BRANDON ALEX; JASHAWN ALEX;
MICHAELLE COHEN; ESTATE OF BRANDON ALEX;
DETREASURE COKER,

Petitioners,
V.

T-MOBILE USA, INCORPORATED; T-MOBILE US
INCORPORATED, FORMERLY KNOWN AS METROPCS
COMMUNICATIONS INCORPORATED; METROPCS
MIDWAY RD; DEUTSCHE TELEKOM NORTH AMERICA
INCORPORATED; T-SYSTEMS NORTH AMERICA
INCORPORATED,

Respondents .
As required by Supreme Court Rule 33. l(h), I
certify that the Petition for Writ of Certiorari contains
8,568 words, excluding the parts of the Petition that
are exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on August 26, 2020.

~ d)UlJl ye UJa.QJ

{C)
Do~aJ. Wolf LJ
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
' www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

~;!1; ~~
Notary Public

BIANCA BECKER

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

